<html>
<title> - THE RESURGENCE OF AL-QAEDA IN IRAQ</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                   THE RESURGENCE OF AL-QAEDA IN IRAQ 

=======================================================================

                             JOINT HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                AND THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 12, 2013

                               __________

                           Serial No. 113-96

                               __________

        Printed for the use of the Committee on Foreign Affairs

Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

86-007 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           BRAD SHERMAN, California
ADAM KINZINGER, Illinois             ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   JOAQUIN CASTRO, Texas
TOM COTTON, Arkansas                 JUAN VARGAS, California
PAUL COOK, California                BRADLEY S. SCHNEIDER, Illinois
SCOTT PERRY, Pennsylvania            JOSEPH P. KENNEDY III, 
TED S. YOHO, Florida                     Massachusetts

                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
TREY RADEL, Florida                  BRADLEY S. SCHNEIDER, Illinois
DOUG COLLINS, Georgia                JOSEPH P. KENNEDY III, 
MARK MEADOWS, North Carolina             Massachusetts
TED S. YOHO, Florida                 GRACE MENG, New York
LUKE MESSER, Indiana                 LOIS FRANKEL, Florida



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Kenneth M. Pollack, Ph.D., senior fellow, Saban Center for Middle 
  East Policy, The Brookings Institution.........................     6
Ms. Jessica D. Lewis, research director, Institute for the Study 
  of War.........................................................    23
Michael Knights, Ph.D., Lafer Fellow, The Washington Institute 
  for Near East Policy...........................................   102
Daniel L. Byman, Ph.D., professor, Security Studies Program, 
  Georgetown University..........................................   116

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Kenneth M. Pollack, Ph.D.: Prepared statement....................     8
Ms. Jessica D. Lewis: Prepared statement.........................    25
Michael Knights, Ph.D.: Prepared statement.......................   104
Daniel L. Byman, Ph.D.: Prepared statement.......................   118

                                APPENDIX

Hearing notice...................................................   144
Hearing minutes..................................................   145


                   THE RESURGENCE OF AL-QAEDA IN IRAQ

                              ----------                              


                      THURSDAY, DECEMBER 12, 2013

                     House of Representatives,    

         Subcommittee on Terrorism, Nonproliferation, and Trade

         and Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittees met, pursuant to notice, at 1 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. Ted Poe 
(chairman of the Subcommittee on Asia and the Pacific) 
presiding.
    Mr. Poe. Committee will come to order. The witnesses will 
be seated, please. Just so you know, as a former judge, I like 
starting on time, and I start on time.
    Without objection, all members may have 5 days to submit 
statements, questions, and extraneous materials for the record, 
subject to the length limitation in the rules.
    Al-Qaeda is back in Iraq.
    Would somebody shut the back doors?
    From the Summer of 2012 to the Summer of 2013, al-Qaeda in 
Iraq was responsible for 24 major suicide bombings and 8 prison 
breaks. The prison breaks allowed al-Qaeda to free their fellow 
killers who were captured. Many of these operatives have turned 
up on the battlefield in Iraq and Syria with intent to cause 
chaos and anarchy and to kill people. Jail breaks, massive 
suicide attacks, and assassinations are the norm.
    Not since 2008 has it been this bad. I would direct your 
attention to the screen. There should be a chart up on the 
screen that shows the--I am going to hold it up. So maybe you 
can see this one better. It shows the massive spike in killings 
from 2008 and then how now in 2013, it has even gotten worse, 
gotten worser.
    One of the most frustrating parts about this is that the 
al-Qaeda in Iraq is the same bunch of killers that the United 
States special forces took apart from 2007 through 2011.
    Prime Minister Maliki, a close friend of the Iranian 
regime, didn't want our help anymore. He is suffering the 
consequences. And now he wants help once again. He talks out of 
both sides of his mouth while trying to cozy up to the United 
States. He cozies up to the Iranians at the same time.
    Prime Minister Maliki came here dragging the sack in 
November, wanting more American taxpayer money. He wanted 
attack helicopters and all sorts of advanced equipment. But is 
that what he needs to go after al-Qaeda? Does he have other 
reasons for wanting this type of equipment?
    Maliki has centralized power, alienated the Sunnis, brought 
back the Shia hit squads. This, in part, has allowed al-Qaeda 
to return to be back in Iraq.
    What Maliki needs is a new strategy to fight al-Qaeda. This 
includes doing a better job of reaching out to the Sunni 
population so they feel like he represents all Iraqis, not just 
1 group.
    The chaos next door in Syria is not helping at all. Al-
Qaeda in Iraq gave birth to al-Qaeda in Syria. And the groups 
essentially act as the same. Their goal, it seems, is to 
establish an extremist area that spans the entire region of the 
world in that area.
    This problem is not going away. Over the past 2 years, we 
have heard from the administration al-Qaeda is on its last legs 
or it is defeated. It doesn't seem that is the case. Over the 
world, al-Qaeda affiliates are gaining size and strength. Many 
continue to follow commands from core al-Qaeda in Pakistan, as 
I call them, the Benedict Arnold ally of the United States. 
That would be Pakistan.
    Al-Qaeda in Iraq is creating a troubling trend. The United 
States doesn't have the luxury of turning our back on the 
situation. Sectarian war in Iraq would be a disaster for the 
entire region and American national security.
    Containing Iranian influence in the region is a top 
priority. Al-Qaeda reestablishing a safe haven to plan and 
launch attacks outside the region is unacceptable. And it is a 
threat to American security. Maintaining the free flow of oil 
to the global market out of Iraq is essential; in fact, some 
way that al-Qaeda in Iraq could hit the Iraqi oil 
infrastructure to weaken Baghdad.
    Al-Qaeda in Iraq has little to lose and everything to gain. 
They are alive, and they are well.
    We are here today to learn from our experts about al-Qaeda 
in Iraq, its resources, its strategy, its tactics, and what we 
are going to do about it, if anything. I look forward to the 
testimony.
    And I now yield time to the ranking member, Mr. Sherman, 
from California.
    Mr. Sherman. Judge, thanks for your convening these 
hearings. And thanks for starting on time.
    Al-Qaeda in Iraq reached the height of its destructive 
capacity in late 2006 and early 2007 before it was largely 
decimated by a counterterrorism campaign, by coalition troops 
and Iraqi security forces, which basically means our troops. 
The organization was weakened to a fraction of its members and 
its capacities.
    In the past 2 years, al-Qaeda in Iraq has regrouped, 
regained capacities, and expanded in the areas from which it 
was expelled during the latter stages of the Iraq war in 2008. 
The result has been perhaps 8,000 deaths this year in a 
revitalization of al-Qaeda in Iraq.
    One of our witnesses, Dr. Pollack, says in his testimony 
that in 2013, Iraq is on track to experience a 100 percent 
increase in violent deaths when compared to 2012. And 2012 was 
no walk in the park.
    There is a cycle of violence in Iraq where AQI targets Shia 
communities and the Iraqi Government responds with massive 
security sweeps against Sunni regions that eliminate some 
extremists but also lay the groundwork for AQI recruiting in 
the future. AQI was largely decimated when we left in 2011. Now 
its ranks have regrown to at least a couple of thousand 
fighters, according to most reports.
    In July 2013, al-Qaeda in Iraq successfully attacked the 
prison Abu Ghraib, leading to the escape of 500 prisoners, most 
of which were people we put in that prison for terrorism. That 
builds a case for perhaps helping Prime Minister Maliki. And he 
wants American weapons. And his biggest argument is that we 
should give him American weapons because his enemies hate us. 
The problem is his friends hate us, too. And his friends in 
Teheran are more dangerous to us than his enemies in Fallujah.
    Now, Maliki's argument goes something like this. He holds 
office today solely as a result of various actions taken by the 
United States, some of which were mistakes. And since, 
therefore, he is our product, therefore, we have to protect him 
and do whatever he wants. And, therefore, he is ``one of the 
good guys,'' no matter who he allies himself with today. The 
fact is allegiance to Teheran is only a bit less than Assad's 
allegiance to Teheran. But Maliki's argument goes something 
like this. Since he has been the beneficiary of a series of 
American mistakes in the past, we have a legal duty to continue 
to make mistakes for his benefit in the future.
    If we are going to provide him with weapons, there ought to 
be at least 4 conditions. The first is that he start trying to 
reach a compromise with at least some elements of the Sunni 
community. He has taken provocative actions against Sunnis, 
such as postponing elections in Sunni regions and forcing 
prominent Sunni politicians out of the government. He shouldn't 
be seeking the best deal he can for the Shiite community. He 
should be seeking a peace that would benefit not only him but 
the United States. And he needs to allow proper Sunni 
representation in his government.
    Second, if he wants our weapons, he ought to pay for them. 
People involved in foreign policy seem to be so focused on 
foreign policy that whether we get paid for the weapons or not 
is, at most, a footnote. The fact is Iraq has plenty of oil 
now. We will have even more oil in the future. They have got 
enough cash to pay for the weapons now. And they can certainly 
borrow in the international markets. And, at a very minimum, 
they can agree to pay us later in cash or in oil.
    Third, he has got to stop Iranian flights over his airspace 
into Syria. Now, he will say, ``Well, then give me an air 
force.'' We don't have to. All he has to do is authorize the 
Saudi, the Turkish, or the American Air Force to ensure that 
his airspace is not used wrongfully by Iranian thugs 
transitioning to Damascus so they can deploy and kill many 
innocent people and some non-innocent people in Syria.
    And, finally, he has got to focus on the hostages from Camp 
Ashraf and the human rights of those in Camp Hurriya, also 
known as Camp Liberty. These are international responsibilities 
that he has.
    So if there is no penetrating analysis, the argument will 
be we created him; therefore, he is a good guy, he is in 
trouble; therefore, we give him weapons for free. That is the 
default position of our foreign policy. My hope is that through 
this hearing and other forms, we are able to penetrate a little 
bit more deeply.
    I yield back.
    Mr. Poe. I thank the gentleman. The Chair will recognize 
the gentleman--the gentle lady?
    Ms. Ros-Lehtinen. Thank you. Yes.
    Mr. Poe. The gentle lady from Florida.
    Ms. Ros-Lehtinen. It is all about timing.
    Mr. Poe. Perfect timing.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    Well, as we know, so much as been going on with the 
resurgence of al-Qaeda in Iraq. Just last month, our 
Subcommittee on the Middle East on North Africa held a hearing 
on U.S. policy toward Iraq as we tried to establish what the 
administration's strategic goals and objectives are in Iraq. 
And the most common theme and cause for concern that came up 
throughout our hearing was the threat posed by the resurgence 
of al-Qaeda in Iraq.
    Unfortunately, as we have seen in many of our other 
hearings this year, al-Qaeda is resurgent throughout the Middle 
East and North Africa, not just in Iraq. The grim reality is 
that al-Qaeda is on the rise. It continues to be a grave threat 
to U.S. national security, despite the administration's 
assessment that it is on the run.
    It has now been 2 years since we withdrew all U.S. forces 
from Iraq, leaving behind a fragile Iraq that perhaps was not 
ready to become stable. Since our departure, we have seen a 
drastic increase in sectarian violence at levels not seen since 
2008, with over 7,000 civilian deaths so far this year. Leaving 
Iraq with so much uncertainty caused irreparable repercussions 
to our regional and national security interests, not to mention 
all of the sacrifices made by our brave men and women in 
uniform.
    The administration's failure to find a mutually agreeable 
resolution to extend our presence in Iraq has severely weakened 
our influence in the country and left a vacuum that is 
currently being filled by forces who seek to harm us and our 
allies.
    On one side, we see a growing Iranian influence in Iraq as 
the regime in Tehran strengthens its ties with the Maliki 
government. Nowhere is this more evident than with the 
unwillingness of the Iraqi Government to halt the Iranians from 
using Iraqi airspace to ship Assad and his regime weapons, 
supplies, and even Iran's Revolutionary Guard Corps, IRGC, 
members to fight along Hezbollah and Assad's forces.
    On the other hand, we have seen a dangerous rise in 
extremism as we witness a clear resurgence of al-Qaeda in Iraq, 
AQI, also known as the Islamic State of Iraq and al-Sham, ISIS, 
and other groups, due to the fact that the Iraqi security 
forces are struggling to combat these extremists and their 
government is not willing to be tough on the Iranian regime.
    AQI took advantage of the uncertain security situation 
created there by U.S. disengagement in Iraq, and reemerged 
stronger and more popular than before the surge. Viewed as a 
theater of jihad, Iraq, along with Syria, has been among one of 
the top destinations for foreign fighters who seek to engage in 
jihad. These foreign fighters pose a serious threat to our 
national security, that of our regional allies and beyond, and 
may soon be able to create a large safe haven that spans from 
Syria to Iraq due to the instability and lack of security in 
both countries.
    Not only do these fighters threaten our European partners, 
where many of these foreign fighters come to train, to wage 
jihad, and then take what they learn back to their home 
countries, they also threaten our friends and allies in the 
region like Israel, Jordan, the UAE, who all fear that the 
extremists will soon turn their attention toward them.
    It is important for the administration to not lose sight of 
what is going on in Iraq and the region. Instead, it must 
strategically implement clear, constructive, goal-oriented 
policies that are geared toward advancing U.S. national 
security interests in the long run.
    Thank you, Mr. Chairman, for the time.
    Mr. Poe. I thank the gentle lady.
    The Chair will now recognize other members for 1 minute. 
The Chair recognizes the gentleman from California, Mr. Vargas.
    Mr. Vargas. Thank you, Your Honor. Thank you for the 
opportunity to speak here today.
    Two years after the U.S. forces departed Iraq, al-Qaeda's 
influence and capabilities have grown significantly, 
particularly in the Sunni communities. The number of civilian 
casualties continue to rise. And al-Qaeda in Iraq remains a 
destabilizing force in the region through its support of 
terrorist networks. Iraq is in danger of becoming a failed 
state. And our national security interests are undermined by 
the growing insecurity of the Maliki government.
    I look forward to hearing from our panel of experts on the 
recommendations on how U.S. can play a strategic role in 
defeating al-Qaeda in Iraq. Thank you. And I yield back, sir.
    Mr. Poe. The Chair will now recognize the gentleman from 
Illinois, Mr. Kinzinger.
    Mr. Kinzinger. Well, thank you, Mr. Chairman.
    It is no secret I have been very critical of this 
administration. And Iraq, as a veteran of Iraq, somebody who 
was there a number of times, I saw, frankly, the bravest 
political move I think in 50 years, the surge in Iraq, doing it 
in opposition to what many on Capitol Hill demanded of the 
President. The President decided to surge, send a message to 
the bad guys that not only is America not leaving. We will 
never be defeated on the battlefield. And we are doubling down 
our commitment to Iraq. Unfortunately, this administration 
completely threw away that gain when we completely withdrew 
from Iraq. I think it is one of the most embarrassing and 
shameful foreign policy decisions that this administration has 
made. And I will continue to remain critical of it.
    When America retreats from the world, chaos follows. And 
when American retreats from Iraq, chaos follows. And what we 
are seeing was an American retreat followed by chaos. So I am 
interested in finding out how we can stay engaged, despite the 
difficulties we see there.
    And I yield back.
    Mr. Poe. I thank the gentleman.
    Without objection, all of the witnesses' prepared 
statements will be made part of the record. I ask that each 
witness remember that I like to start on time and quit on time. 
You have 5 minutes. I will introduce each of the witnesses and 
then give them time for their opening statements. And, once 
again, the members do have copies of your prepared remarks.
    Dr. Kenneth Pollack is a senior fellow at the Saban Center 
for Middle East Policy. Dr. Pollack began his career as a 
Persian Gulf military analyst at the CIA and has served twice 
on the staff of the National Security Counsel. He has also been 
a senior research professor at the National Defense University 
and director of the National Security Studies at the Council on 
Foreign Relations.
    Jessica Lewis is the research director at the Institute for 
the Study of War. Prior to joining the Institute for the Study 
of War, she served 8 years on the active duty as an 
intelligence officer for the United States Army. Her military 
career includes 3 deployments to Iraq and Afghanistan, where 
she served as tactical, operational, and theater-level 
commands. She has twice been awarded the Bronze Star medal for 
her impact on operations. Ms. Lewis, as a side note, thank you 
for your service in the military.
    Dr. Michael Knights is the Lafer Fellow at the Washington 
Institute for Near East Policy specializing on Iraq and the 
Kurdistan Regional Government. He has worked almost exclusively 
on Iraq for the last 15 years, working in every Iraqi province 
and most of the country's 100 districts as an adviser to 
government, military, reconstruction agencies, and the oil 
sector.
    Dr. Daniel Byman is a professor in the Security Studies 
Program at Georgetown University School of Foreign Service and 
the research director for the Saban Center for Middle East 
Policy at the Brookings Institution. Dr. Byman previously 
served as a professional staff member with both the National 
Commission on Terrorist Attacks on the United States--that is 
the 9/11 Commission--and the joint 9/11 inquiry staff of the 
House and Senate Intelligence Committees.
    We have an excellent group of panelists today. And we will 
start with Dr. Pollack. You have 5 minutes.
    Mr. Pollack. Thank you, sir.

 STATEMENT OF KENNETH M. POLLACK, PH.D., SENIOR FELLOW, SABAN 
    CENTER FOR MIDDLE EAST POLICY, THE BROOKINGS INSTITUTION

    Mr. Pollack. Mr. Chairman, Madam Chairman, Congressman 
Sherman, distinguished members, thank you very much for 
affording me this great honor in addressing you today on this 
extremely important topic.
    I would like to focus my remarks on the strategic context 
that has produced the resurrection of al-Qaeda in Iraq in the 
expectation that my very able colleagues will be better able to 
handle the tactical aspects and the technical aspects of that 
resurgence.
    I would simply like to make 4 remarks about what we are 
seeing in Iraq. First, the rise of al-Qaeda in Iraq is not the 
malady itself. It is a symptom of the malady. The real problems 
in Iraq are the problems of Iraqi politics. It has been the 
problem ever since 2003. From 2003 until 2006, as a result of 
our catastrophically mishandled early reconstruction of Iraq, 
Iraqi politics were a mess. They enabled the infiltration of 
al-Qaeda into Iraqi society, pushed the Sunni tribes into the 
arms of al-Qaeda and other Salafist groups and built the 
foundation for the heavy terrorist campaign insurgency that we 
faced in Iraq during that period of time.
    It is not a coincidence that from 2007 until at least 2010, 
during the period of the surge, Iraqi politics turned in a very 
different direction. They moved in a very positive direction, 
toward greater inclusiveness, toward greater democratization. 
It is no coincidence that, as a result, al-Qaeda in Iraq was 
enormously marginalized. The Sunni awakening was a critical 
element of that, but it was only 1 element of that larger 
process.
    And it is also no coincidence that beginning in about 2011, 
as Iraqi politics faced a very significant downturn following 
the removal of American troops from Iraq that, once again, we 
have seen a resurgence of al-Qaeda's activities, its ability to 
recruit, its ability to insinuate itself, and its acceptance 
within the Sunni community of Iraq.
    There has been a tendency to ascribe al-Qaeda in Iraq's 
resurgence to Syria. And there is no question that the Syrian 
civil war has contributed to this state of affairs.
    From 2009 to 2010, however, while Iraqi politics were doing 
quite well, there was no shortage of jihadists coming from 
Syria, but there was simply no acceptance in Iraq. And so we 
cannot attribute the problems entirely to Syria. It is true 
that the Syrian civil war has helped re-radicalize the Iraqi 
population. It has empowered Iraqi extremists. But it is only 
part of what is going on.
    Second, the obvious follow-on from my first point that the 
rise of al-Qaeda is primarily a function of the problems in 
Iraqi politics should lead us to a focus on Iraqi politics as 
the real solution to that problem. Certainly greater 
counterterrorism assistance, more proficiency with 
counterterrorism will help, but it will help primarily to treat 
the symptom. Unless we are willing, unless the Iraqis are able 
to deal with their political problems, the symptoms will recur. 
And they could recur in a far more virulent form. And, 
therefore, it is incumbent upon us to help the Iraqis deal with 
their political problems if we are to eradicate al-Qaeda in 
Iraq once again. And this focuses on bringing the Sunnis back 
into the government and rebuilding the power-sharing 
arrangement that the United States brokered as part of the 
surge in 2007-2008.
    Third, the upcoming elections in Iraq could turn Iraq in a 
more positive or a potentially much more negative direction. In 
particular, if Sunnis and other Iraqis who feel marginalized 
believe that they have political recourse to address their 
grievances, they will be far less likely to support both 
actively and passively groups like Iraq. But, unfortunately, 
the opposite is also true. And if the elections produce an 
outcome that Sunnis and others believe has further alienated 
them, made it more difficult for them to address their 
grievances through the political process, it is likely that 
they will more closely embrace al-Qaeda and other radical 
groups and the violence will worsen.
    And, finally, it is important to remember that while 
American influence in Iraq has waned and has waned quite 
considerably, it is not nonexistent. We still do have levers of 
influence with the Iraqis. And, what is more, we could rebuild 
our influence further, in particular, by conditioning our aid 
in exactly the manner that Congressman Sherman described in his 
opening remarks. There is a great deal that the Iraqis still 
want from us. And all of that that Iraq wants from us is a 
source of leverage, a source of leverage that we could be 
employing without a dramatic increase in our actual funding of 
Iraq but that could, nevertheless, make a very important impact 
on Iraqi politics and, therefore, on al-Qaeda in Iraq.
    Thank you very much.
    [The prepared statement of Mr. Pollack follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Poe. Ms. Lewis?

STATEMENT OF MS. JESSICA D. LEWIS, RESEARCH DIRECTOR, INSTITUTE 
                      FOR THE STUDY OF WAR

    Ms. Lewis. Good afternoon, Mr. Chairman, Mrs. Chairman, Mr. 
Ranking Member, and distinguished members. It is an honor to 
speak to you today. And I thank you as well for your service.
    Al-Qaeda in Iraq is resurgent. As you have mentioned levels 
of violence in Iraq this year compared to 2008 according to 
multiple sources, the pattern of car bomb attacks attributed to 
al-Qaeda in Iraq compared to early 2007, these attacks are not 
haphazard; instead, demonstrating clear patterns and 
operational intent as well as a sophisticated military 
bureaucracy that can design, resource, and execute phased 
military campaigns. It is necessary to observe their 
capabilities and organization as well as their expressed goals 
in order to estimate what threats al-Qaeda may pose to 
governments in the region and ultimately to U.S. interests.
    The two al-Qaeda campaigns I will discuss are the Breaking 
the Walls campaign from July 2012 to July 2013 and the ongoing 
Soldiers' Harvest campaign. The testimony I provided reports 
extensively on the former to support the conclusions I will 
address here.
    The first, the Breaking the Walls campaign, was executed 
primarily through al-Qaeda in Iraq's signature weapons system, 
the vehicle-born improvised explosive device, or VBIED, which 
is a highly specialized and signature car bomb. The campaign 
involved 2 main objectives: To reconstitute the veteran al-
Qaeda network in prison in Iraq, as mentioned; and to target 
Shia civilians in order to stoke a sectarian war. Al-Qaeda in 
Iraq was successful at both. Two prison attacks resulted in 
mass prisoner release, including the most recent Abu Ghraib 
attack. The wave of car bomb attacks against Shia civilian 
attacks escalated dramatically in February of this year. And by 
May, there were indications of Shia militia remobilization in 
Baghdad. The waves of car bombs showcased al-Qaeda in Iraq's 
robust supply chain and specialized weapons skills.
    The second campaign, the Soldiers' Harvest, involved 2 new 
objectives to target the Iraqi security forces directly and to 
establish control of terrain in Iraq as well as Syria. The 
Iraqi security forces are now targeted in their homes as an 
intimidation tactic. They are also being targeted through 
combined arms attacks upon security compounds, particularly in 
Kirkuk and Anbar provinces. The attacks upon hardened 
facilities are complex, involving car bombs, indirect fire, 
small arms fire. And they represent al-Qaeda's contests for 
control of terrain in Iraq.
    As of November 2013, there are indications of al-Qaeda's 
moving to establish control in southern Anbar province, in 
Diyala province, and northern Babil province, along with 
multiple locations in Syria, including northern border towns in 
areas around Aleppo City.
    The control of terrain serves more than a military purpose. 
Al-Qaeda in Iraq's goals include governance, which also extends 
to Syria. In April 2013, the organization's leader, Abu Bakr 
Al-Baghdadi, announced the establishment of the Islamic State 
of Iraq and al-Sham, referring to Iraq and Syria. This 
indicates not only that Al-Baghdadi's goal is the establishment 
of an Islamic emirate but also that he envisions his emirate as 
transnational, spanning territory in Iraq as well as Syria.
    It is likely that al-Qaeda's military resurgence in Iraq 
was made possible because of the war in Syria as well as 
political conditions in Iraq, but given the attention that al-
Qaeda continues to direct to attacks in Iraq, it is also likely 
that al-Qaeda's military achievements in Iraq have allowed it 
to assert greater control over territory and organizations in 
Syria.
    As the moderate opposition in Syria falters, al-Qaeda in 
Iraq stands to gain without rivals to limit its advances on 
that front. In Iraq, the Iraqi security forces are mobilized to 
fight al-Qaeda, but their operations are not succeeding. And 
al-Qaeda's operations are driving security force response.
    Al-Qaeda in Iraq's resurgence poses a direct threat in the 
region in 2 ways that I see. First, al-Qaeda establishes 
control of terrain. It does so at the expense of state 
legitimacy, which extends conditions of lawlessness from Syria 
to Iraq and further threatens Turkey, Jordan, and other states 
in the region.
    Second, al-Qaeda's campaign against Shia civilians and holy 
sites in Iraq escalates regional sectarianism and necessarily 
invokes Iranian concern. In this way, al-Qaeda in Iraq 
accelerates other regional threats.
    Aside from associated threats to U.S. interests that are 
physically located in the region, the greatest threat that al-
Qaeda in Iraq poses to U.S. security today is the military 
professionalism of the foreign fighter network, as mentioned, 
which connects al-Qaeda's affiliates globally. Foreign fighters 
in Iraq and Syria today are learning al-Qaeda in Iraq's style 
of warfare and potentially forming strong bonds. As these 
fighters return to Africa, to Chechnya, to Europe with 
experiences and relationships in hand, they will pose new 
threats. They may precipitate attacks in the West.
    At this time, al-Qaeda in Iraq has not voiced the intent to 
target the U.S., which has been interpreted to mean that it 
should be a lower-priority terrorist threat. While it is likely 
that the broader al-Qaeda network benefits from al-Qaeda in 
Iraq's success, which should concern us, it is also important 
to recognize that al-Qaeda in Iraq is not solely operating as a 
terrorist organization. It is operating like a military 
vanguard. And it is necessary to evaluate the threat to the 
region and to the U.S. that an al-Qaeda-led emirate in Iraq and 
Syria may pose. Conditions point to their increased strength 
over the coming year, making this goal a greater concern.
    I yield back to you, Mr. Chairman.
    [The prepared statement of Ms. Lewis follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Poe. Dr. Knights, you have 5 minutes.
    Mr. Knights. Thank you very much.

    STATEMENT OF MICHAEL KNIGHTS, PH.D., LAFER FELLOW, THE 
           WASHINGTON INSTITUTE FOR NEAR EAST POLICY

    Mr. Knights. It is an honor to appear before you this 
afternoon. I clearly remember the first moment that I felt that 
al-Qaeda was making its comeback in Iraq. In July 2011, 
security forces found in the desert district of Rutba the 
corpses of 3 prominent sheikhs, 3 brothers, who had been 
beheaded by al-Qaeda and their bodies booby-trapped to prevent 
a prompt burial, a sign of disrespect. I camped in that desert 
area just a year beforehand, spending a memorable 4th of July 
there.
    It is my firm belief that al-Qaeda's resurgence was both 
predictable and preventable, but, just as firmly, I believe the 
counterterrorism situation in Iraq is recoverable.
    This is a rare problem in that we know exactly how to fix 
it. We defeated al-Qaeda in Iraq just 5 years ago, 
comprehensively dismantling their network's propaganda 
campaigns. In the coming years, the United States can help Iraq 
to do it again.
    Put simply, Iraq needs to do 2 things. The Iraqi Government 
needs to make the right political choices during the next 
parliamentary term. And the Iraqi military needs to turn back 
toward population-focused counterinsurgency. It wasn't easy 
last time. It is going to be even harder this time with Iraqi 
brigades, rather than U.S. brigades.
    The good news is that today's al-Qaeda in Iraq is 
vulnerable. It is expanding rapidly. It is conventionalizing. I 
knew a New York Times report from I think a couple of days ago 
talking about al-Qaeda convoys of 40 vehicles moving around in 
the desert. Well, that is very scary for Iraqis, but I will bet 
to an AC-130 targeteer, that is quite a tempting target.
    As they conventionalize, they expose themselves to attack. 
And try as they might, al-Qaeda in Iraq cannot resist the urge 
to control territory, to tax populations, to impose Islamic 
scripture on the locals, to kill and insult local power 
brokers, and to fight with other insurgents. It is already 
over-reaching. It is already alienating Iraqis.
    And also al-Qaeda in Iraq has only succeeded because the 
Government of Iraq has made egregious errors in the last couple 
of years. Al-Qaeda in Iraq still has no positive manifesto for 
how it would run Sunni parts of Iraq or Syria or anywhere else. 
It is wholly reliant on the Iraqi Government, continuing to 
make grievous political mistakes in its treatment of the Sunni 
Arabs and in its counterinsurgency operations.
    My experience in Iraq, whether it is the Mahdi Army militia 
or whether it is al-Qaeda, is that these groups only expanded 
because others let them. They only expanded because they 
exploited others' mistakes, not because they were so great 
themselves. They are certainly not 10 feet tall. We beat them 
before, and we can do it again.
    So the stage is set for a major new counterterrorism 
campaign undertaken by Iraq if the Iraqi Government could 
embrace this opportunity. What should be our role, the U.S. 
role, in helping them to defeat al-Qaeda again?
    Well, Iraq cannot kill its way out of this crisis. 
Unfortunate evidence of this was shown in 2010. We killed al-
Qaeda's 2 senior leaders. They had been making a lot of 
mistakes. Their successors have made very few.
    Al-Qaeda has a strong believable narrative at the moment. 
And this is what we have got to break down. This narrative is 
that an Iranian-backed, Shiite-dominated government in Baghdad 
is determined to collectively punish the Sunni Arabs and that 
the only force capable of resisting the government and avenging 
the Sunnis is al-Qaeda. This narrative has to contain fewer 
seeds of truth than it does today if al-Qaeda in Iraq's growth 
is to be checked.
    What can the U.S. do? Well, the first thing we can do, 
which doesn't require a lot of money, weapons, or troops, is to 
help the Iraqi Government to stop making mistakes by using our 
voice persistently and at moments of leverage, like the 
government formation process that is going to come in 2014. We 
need to encourage them to hold punctual, free, and fair 
elections, to undertake judicial reforms to de-Baathification, 
counterterrorism laws, a modernized prison system, and also 
some kind of landmark rehabilitation of the major persecuted 
Sunni Arab leader, such as Rafi al-Issawi, that the U.S. 
Government has defended in the past from legal threats and 
charges against him and should do so again.
    Most importantly, the U.S. should stay engaged. By staying 
engaged in Iraq, by paying attention to the details of Iraq's 
politics, the U.S. can reduce the Sunni Arab perception, in 
Iraq and elsewhere, that Iraq is being ceded to Iran in some 
diabolical great game. That is not the case. The U.S. still has 
a lot of influence in Iraq and should continue to use its voice 
as well as to provide behind-the-scenes counterterrorism 
support.
    I yield back to the chair.
    [The prepared statement of Mr. Knights follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. I thank the gentleman.
    Dr. Byman?

   STATEMENT OF DANIEL L. BYMAN, PH.D., PROFESSOR, SECURITY 
             STUDIES PROGRAM, GEORGETOWN UNIVERSITY

    Mr. Byman. Chairman Poe, Chairman Ros-Lehtinen, 
distinguished members of the subcommittees, thank you very much 
for allowing me to testify today.
    My colleagues on this panel have handled the domestic 
situation in Iraq well. So, rather than repeat their points, 
let me focus on several of the regional aspects because al-
Qaeda in Iraq both is and aspires to be a regional movement.
    The conflict raging next door in Syria has proven a huge 
boost to this organization. Al-Qaeda in Iraq was able to 
relocate part of its leadership and part of its cadre to Syria, 
both to support jihad there and also to enjoy the sanctuary 
that such chaos offers to arm and train and organize. Although 
Syria is often referred to as the new Iraq or the new 
Afghanistan regarding its role in aspiring jihadists, in 
reality, the situation is much worse. The data are scarce, but 
it appears that more foreigners from the West have come to 
Syria in a far shorter period of time than the numbers who 
travel to previous fields of jihad. These fighters in Syria are 
remarkably well networked with each other and with other 
jihadist causes, especially al-Qaeda in Iraq. Many others are 
developing relationships while they are in Syria.
    Unfortunately, a number of Arab states and movements, 
including a number of governments that are allied to the United 
States, share al-Qaeda in Iraq's view that its fight against 
the Maliki government is similar to the Syrian Sunni 
community's struggle against the Assad regime. Both rebels in 
the eyes of many Sunni Muslims are fighting an Iran-backed 
apostate regime that is brutalizing the Sunni community.
    These states and movements supporting Syrian rebels often 
use al-Qaeda in Iraq and western Iraqi tribes to transfer 
resources to Syria. Naturally, al-Qaeda in Iraq has kept some 
arms and money for itself. Even more important, it was able to 
convince many volunteers who intended to fight in Syria to stay 
in Iraq and fight on its behalf.
    A number of Sunni states, notably Saudi Arabia, see Iraq as 
part of a strategic competition with Iran. Riyadh fears that 
Teheran is bent on regional hegemony and sees Teheran's gain of 
an ally in Iraq after 2003 as a huge shift in the regional 
balance. Undermining Iran's ally in Iraq and ideally reversing 
Iran's gains are motivating these states to support anti-regime 
forces there.
    As al-Qaeda in Iraq grows, the violence could spill over 
into the region outside Syria. Other states, especially Jordan, 
are targets for al-Qaeda in Iraq. Also, as the organization 
becomes stronger, its ability to strike Western targets outside 
the region, including in Europe but also in the United States, 
also grows. Unfortunately, since U.S. forces have departed 
Iraq, the United States has done its best to ignore the 
country. Hearings like this are rare moments when Iraq is given 
the attention it deserves.
    Although there are regular diplomatic contacts and I 
commend many administration officials for trying to push Iraq 
in the right direction, unfortunately, a deeper level of 
engagement is required if the United States is going to have 
any chance of dissuading the Maliki government from continuing 
its self-defeating policies, the ones that fuel the growth of 
al-Qaeda in Iraq.
    But many of the keys to defeating al-Qaeda in Iraq lay 
outside Iraq. The United States needs to push allies, like 
Saudi Arabia and Kuwait, to stop using Iraq as a transfer point 
for financing and arming fighters in Syria. In addition, 
Washington should strongly discourage their perception that 
Iraq could be another front in rolling back Iran. Washington 
should also consider backing secular Syrian opposition forces 
more forcefully in order to ensure that jihadist organizations 
do not completely dominate the opposition in Syria as this 
cross-border relationship has tremendous benefits for al-Qaeda 
in Iraq.
    Finally, and given the many problems that are to be 
expected with the Maliki regime, the United States should 
prepare for the problem to get worse. It should take steps to 
prepare for potential spillover from Iraq to Jordan, Saudi 
Arabia, and other neighbors as well as ensure its own 
counterterrorism capabilities. And authorities are robust. So 
the United States can act unilaterally if necessary.
    Thank you very much for this time.
    [The prepared statement of Mr. Byman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Poe. I thank the gentleman. The Chair will yield 5 
minutes to the chairman of the Middle East Subcommittee, Ms. 
Ros-Lehtinen, from Florida.
    Ms. Ros-Lehtinen. You are a Texas gentleman. Thank you. But 
then I repeat myself. Thank you. I have caught my breath. So 
thank you so much.
    Well, as the hearing is entitled, as you know, there is a 
resurgence of al-Qaeda in Iraq. And that has not been the 
narrative from the administration. And, in fact, we hear little 
about how the administration plans on fighting al-Qaeda in Iraq 
and throughout the region. Do you believe that the 
administration has underestimated the growth, the capacity, the 
reach of al-Qaeda and its affiliates? And why has it been 
reluctant, if you agree or not agree, to admit that the scope 
of the danger is far larger than we thought, that we're facing 
an al-Qaeda that is stronger?
    On Syria, we know that the Syrian conflict has played a 
role in the increase of violence in Iraq, but it is clearly not 
the driving force behind the deterioration of the security 
situation in Iraq. However, with the Iraqi Government's 
inability to secure the areas around the Syrian border and the 
instability in Syria seemingly unending, we may see al-Qaeda 
able to establish a safe haven across both countries. What 
steps should we take to combat the AQI threat to ensure that 
they don't establish a safe haven in the Iraq-Syria border? And 
to what extent has Maliki's inability to govern in an inclusive 
way without catering to a sectarian agenda helped to create 
this environment in Iraq that has allowed al-Qaeda to make 
these gains?
    Now we have got upcoming elections in Iraq next year. And 
many of us are concerned with the current instability, the 
distrust between the different political groups and religious 
groups. There is a lack of political will to overcome these 
differences, that these elections may bring Iraq to an all-out 
civil war.
    Are these elections going to be a calming influence, a 
bringing together, or is it going to be a problem? What can we 
do to support Iraq in this troublesome period? What measures 
can we take to help ensure that these elections will be free 
and fair and transparent and will result in a peaceful and 
constructive effort that can create an inclusive government, 
which is what we want, willing and capable of maintaining 
stability and the rule of law in Iraq?
    And we know that Iran's influence has grown with Maliki. We 
have done so much to try to make that divorce happen, but we 
haven't seen from the administration any tangible results.
    What leverage do we have left with Maliki when it comes to 
Iran? That is a whole lot of stuff.
    Ms. Lewis. Madam Chairwoman, I would like to tackle what I 
took away as 3 questions. The first, did we underestimate al-
Qaeda's resurgence? While we are talking about this topic, 
there is still a narrative that perhaps al-Qaeda has been 
defeated.
    And I think for me, the principal question is, what is the 
relationship between al-Qaeda in Iraq and al-Qaeda core? And 
what does that tell us about what will happen to the broader 
al-Qaeda network if al-Qaeda in Iraq becomes stronger in Iraq 
as well as in Syria? And I think that over the course of this 
discussion, we have framed very well that 1 of the principal 
concerns that connects all of these things is the draw of 
foreign fighters globally to the fight, which al-Qaeda in Iraq 
is leading in Syria as well as Iraq. So yes, I think that it 
does make the----
    Ms. Ros-Lehtinen. And the foreign fighters has been--okay.
    So 1 minute. Have at it, Dr. Byman.
    Mr. Byman. I think the reasons why the administration has 
downplayed this to me are relatively clear. I would emphasize 
2. One is the answers are very, very difficult in terms of 
actual solutions. U.S. influence is present but limited. And 
many of the things we may try may not work. But, more 
important, I think there is very little domestic support for a 
strong re-engagement with Iraq. And the administration is 
sensitive, even though that is what is necessary if we are 
going to fix things. It requires taking action in Iraq. It 
requires taking action in Syria. And I think the administration 
is sensitive to the lack of American public support for that.
    Mr. Knights. I will tackle 2 points. Back in late 2010, 
early 2011, it was extremely difficult to get anyone to take 
the beginning of the resurgence of al-Qaeda in Iraq seriously. 
And that is the opportunity that we missed here with the 
administration. At that point, nobody wanted to accept that 
Iraq was not in a fit state to handle----
    Ms. Ros-Lehtinen. Thank you.
    Mr. Knights. Thank you.
    Ms. Ros-Lehtinen. And I am out of time. I apologize.
    Thank you so much, Mr. Chairman. Thank you.
    Mr. Poe. Ranking Member? The Chair will yield 5 minutes to 
the ranking member, Mr. Sherman.
    Mr. Sherman. Thank you.
    One of the things I learned from this hearing and a host of 
other hearings in this room is that we have to resist the 
Pentagon's desire to pivot toward Asia. Given all of the 
complexities and difficulties of dealing with the Middle East, 
I can understand why our generals weaned on the World War II 
movies that we all enjoy. Living through the great success we 
had in the Cold War and military confrontation with the Soviet 
Union long for a conventional, uniformed foe and would it be 
the case that we had this whole Middle East thing all handled 
and it was time to worry about whether Japan got to control a 
couple of uninhabited rocks in the East China Sea.
    The gentleman from Illinois I agree with in part when he 
says it is a bad thing when America retreats, but I would say 
when America gets hoodwinked into fighting and dying for Iran's 
allies, that is not necessarily a good thing.
    In both Afghanistan and Iraq, we foolishly and prematurely 
turned the government over to native governments that were 
certainly not pro-American. We contrast this to how we not only 
won the war but won the peace in World War II. We did not 
transfer power in Tokyo. We did not transfer power to Bonn 
until certainly the countries were completely pacified. And, 
second, the government taking over was undoubtedly pro-America.
    I slightly disagree with Dr. Pollack when he says we have 
got to have fairness for the Sunnis or we are going to have 
continued unrest. I have chanted in the past, ``No justice, no 
peace,'' but the fact is that Saddam demonstrated that 1 
community can effectively dominate in Iraq and not necessarily 
a good thing.
    My first question for whoever on the panel can answer it 
is, how much of our money does Maliki get now? How much is he 
asking for? And when I say, ``our money,'' I mean free food, 
free weapons, military aid, civilian aid. Does anybody happen 
to have those numbers?
    [No response.]
    Mr. Sherman. No one does, but I know our staff will get 
those and supplement the record. I would point out that--and I 
don't know if anyone has the answer to this question. And that 
is, is Iraq producing all the oil it can or just all the oil it 
is allowed to under the OPEC cartel agreement? Dr. Knights?
    Mr. Knights. Iraq is producing as much oil as it can at the 
moment. The main restraint on it is the export infrastructure 
and water injection and so on, technical details basically. But 
they should iron a number of those out in the first quarter of 
next year. And then they could be very significantly increasing 
the amount of oil that they produce.
    Mr. Sherman. Will they bump up against the OPEC quota? And 
do they plan to produce more than that quota when it is 
technically capable?
    Mr. Knights. For the moment, they want to produce more than 
that quota until they feel that they have rebuilt the country 
from its decades of disaster. And they will also bump up 
against the Iranian wish to also come back on the market 
hopefully from their perspective. So we could see a little bit 
of Iran-Iraq friction.
    Mr. Sherman. Ms. Lewis or anyone else who has any question. 
You have got Maliki saying, ``Hey, I don't want thugs and 
weapons flying over my country to kill innocent people in 
Syria, but I can't control my airspace.'' Is that true? Does he 
have not a single operational aircraft?
    Ms. Lewis. Mr. Ranking Member, shortly I would have to go 
back and research who does have rotary wing aircraft. I would 
defer to other subject matter experts on the panel if I am 
missing----
    Mr. Sherman. Because these Iranian planes, they are like 
707s from the '80s, the '70s.
    Mr. Pollack. They have no fixed-wing air defenses, fixed-
wing aircraft.
    Mr. Sherman. They have no fixed-wing----
    Mr. Pollack. They could take them down, correct. They do 
not. They are trying to get them as fast as they can.
    Mr. Sherman. But there is not a single operational----
    Mr. Pollack. Right.
    Mr. Sherman [continuing]. Rotary propeller, nothing?
    Mr. Pollack. Rotary they have, but they do not have 
fighters that could actually shoot down jets.
    Mr. Sherman. Even the kind of plane that my parents were 
flying to Europe on in the '50s.
    Mr. Pollack. a helicopter would have a hard time getting--
--
    Mr. Sherman. When you say, ``rotary,'' you mean yes, okay. 
You don't mean propeller. You mean helicopter.
    Mr. Pollack. I mean helicopter.
    Mr. Sherman. Yes. Helicopter probably doesn't shoot down a 
jet. I will just point out that they could, of course, invite 
the United States to patrol their airspace.
    And I don't know if Dr. Knights has a comment.
    Mr. Knights. Just a very quick one, which is that the 
Iraqis had no problem whatsoever closing their airspace to the 
Turkish Energy Minister just over a week ago. So it is really 
about political will, not whether they can shoot something 
down.
    Mr. Sherman. Where was the Turkish Energy Minister going?
    Mr. Knights. He was flying into the Kurdish north of Iraq 
to attend the oil conference.
    Mr. Sherman. Yes.
    Mr. Poe. I thank the gentleman from California.
    I want to follow up on some of your comments earlier. When 
I was in Iraq a couple of years, year and a half ago, prime 
minister--I asked him the question about the oil and how about 
paying for some of this nation building, military, all the 
things America is doing. And he literally was very vocal about 
Iraq would not pay the United States a dime for helping them 
liberate their country and rebuild their country. So I think 
that might still be his position.
    I would like to look at this a little bit bigger. No 
question about al-Qaeda is back in Iraq. Maliki, the 
government, are they playing both sides? Are they wanting the 
United States to help them to defeat al-Qaeda, which is on the 
rise, no question about it, so that we can do their work for 
them so they can pivot toward Iran and Iran come in and Iraq be 
a new coalition, so to speak, and the United States is still 
the bad guy in the neighborhood?
    I would like your opinion on that. I fear this possibility. 
So I would like to know what you experts think about that.
    Mr. Pollack. Mr. Chairman, if I could offer some thoughts 
on that matter? It is certainly the case that the Iraqi 
Government would like our help dealing with al-Qaeda. I think 
that if we offered to take care of al-Qaeda for them, they 
would be more than glad for that.
    It is also the case that Iran wields a great deal of 
influence in Iraq, largely because we have abdicated our 
influence in the country and Iran has lots of different ways to 
do so.
    That said, I think it important that in my own experience, 
both watching Iraq and also my own interactions with Prime 
Minister Maliki, I do not believe that this is a man who is an 
eager ally of Iran. In fact, my experience with him is he 
really dislikes the Iranians. He is very afraid of the 
Iranians. He is very much an Iraqi nationalist. He would like 
to separate himself from the Iranians if he could, but since 
there is nobody really pushing on the other side, he doesn't 
feel like he has got a whole lot of help.
    And I also want to be clear he makes a lot of mistakes 
himself. He overreacts. He goes after his internal rivals in an 
undemocratic fashion that has alienated both his internal 
rivals and their external supporters. And it has left him with 
little choice but to turn to Iran.
    Mr. Poe. Anybody else want to weigh in on that with--just 
briefly, Ms. Lewis?
    Ms. Lewis. Mr. Chairman, I would agree. I think we should 
consider the possibility that Maliki's fear of al-Qaeda is 
driving him closer to Iran as we craft what we might do about 
it.
    Mr. Poe. So do you see the scenario that I mentioned as 
something that we should be concerned about that he is pivoting 
to Iran, wants us to get rid of al-Qaeda with him and then he 
is buddy buddy with Iran? Is that something that we should be 
concerned about, the United States----
    Mr. Byman. Mr. Chairman?
    Mr. Poe [continuing]. Or not?
    Mr. Byman. Excuse me.
    Mr. Poe. Go ahead, Dr. Byman.
    Mr. Byman. Mr. Chairman, we should absolutely be concerned 
about it, but the recognition is what he wants is a high degree 
of independence and autonomy to do what he wants. And right now 
Iran is the dominant power in Iraq. And he can't do that. We 
need to have our own presence there. And that is an economic 
presence. That is a political presence and a security presence. 
And then he will try to play us off.
    He is a cynical politician. He is ruthless. He is 
conniving. But right now he has to work with the Iranians 
because he has no choice. We need to give him some other 
options in order for this to even be a possibility.
    Mr. Poe. All right. The United States is at a point here 
where--we all know where we are as far as U.S. involvement. To 
defeat al-Qaeda in Iraq and be an influence in Iraq, are we 
just there to stay? I mean, are we there--is Iraq going to 
become the 51st state? Are we just going to be there forever?
    People I think are concerned, like a lot of Americans, 
about all the money that has gone to Iraq, all those things. So 
al-Qaeda is the problem. We are saying we are going to help 
them. How long is this going to take? Dr. Byman, look into your 
crystal ball. Help us out with this.
    Mr. Byman. Sir, I don't think there is any chance that we 
are going to go in big to Iraq. So the question to me is, are 
we able to restore some influence? Part of that is through arms 
sales. Part of that is through renegotiating diplomatic 
agreements. Part of it is through covert action, intelligence 
cooperation. We can get something, sir.
    Mr. Poe. Does Iraq have the money to buy our equipment or 
do we need to continue just to give it to them?
    Mr. Byman. Iraq increasingly has the money, but we want 
them to have our equipment. That is a good thing for us as well 
as for them.
    Mr. Poe. All right. Dr. Knights, last comment on this 
question.
    Mr. Knights. Yes. Iraq is economically not a Bahrain or a 
Yemen or a Jordan, requiring the same kind of military 
assistance to buy our stuff, but they are not a Saudi or a UAE 
yet either. The country is totally wrecked.
    Mr. Poe. All right. Thank you very much.
    The Chair will yield 5 minutes to Mr. Connolly.
    Mr. Connolly. I thank the chair. I welcome the panel.
    The chair has circulated a bar chart showing the upsurge in 
violence in Iraq. Dr. Byman, to what would you attribute this 
really quite stunning increase in the number of civilian deaths 
in Iraq?
    Mr. Byman. Sir, I would say in the big picture, 2 things. 
One is a set of rather disastrous mistakes by the Maliki 
government ranging from very bad counterinsurgency to 
politically excluding the Sunni community and making them look 
to al-Qaeda in Iraq as a defender. And externally I would say 
the Syrian conflict has fueled radicalism throughout the region 
and put resources into this area in a very dangerous way.
    Mr. Connolly. And, Dr. Knights, I saw you and Dr. Pollack 
shaking your heads and you, Ms. Lewis. Anything you want to add 
to that?
    Mr. Knights. From my perspective, I think all those points 
are right: The Iraqi Government policy poor counterinsurgency 
tactics, the Syrian crisis back to back with this one, and the 
4th thing, that they alienated the United States at the precise 
moment of withdrawal, preventing a really close intimate 
intelligence relationships but forming. Now we have another 
chance to start that again after Maliki's visit.
    Mr. Connolly. Mr.--I am sorry if you wanted to comment?
    Ms. Lewis. Well, Congressman, just very quickly to provide 
the tactical observation that most of those deaths occurred 
because of al-Qaeda's car bomb campaign, which is actually a 
very small component of the al-Qaeda broader military 
organization and can actually be targeted effectively by Iraqi 
security forces if they could figure out how to do it.
    Mr. Connolly. Right.
    Mr. Pollack. Congressman, just to build on the points by my 
colleagues earlier, in 2007, the United States helped forge a 
power-sharing arrangement, a new power-sharing arrangement, 
among the different communities of Iraq. Unfortunately, since 
our departure, Prime Minister Maliki but also with some help 
from his opposition has torn that agreement apart. And that has 
led to once again a resurgence of fear across Iraq, which has 
pushed the Sunni community back into the arms of al-Qaeda, in 
many cases very unwillingly because they remember what it was 
like in 2006-2007. And so they have gone grudgingly. And that 
at least opens up the possibility that we could help the Iraqis 
once again put that power-sharing agreement back together, 
which I think would go a very long way to dealing with the 
problems.
    Mr. Connolly. That is very interesting because there is the 
political aspect of this that has real consequences.
    Mr. Pollack. Correct.
    Mr. Connolly. But there is also--and I think, Ms. Lewis, 
you were alluding to it. And I would be interested in comments. 
What is the--I mean, we have helped create a security force of 
800,000 in Iraq. What are we getting for that relationship, 
that investment? Are they capable of deterring long-term the 
threat that is posed by al-Qaeda? Dr. Byman?
    Mr. Byman. Currently sir, I would say no. I would say that, 
despite their numbers, despite their fire power, they are 
pursuing a doctrine of, I will say, suppression, rather than 
counterinsurgency. They are going into villages. And they are 
often systematically arresting or abusing young males. They are 
not trying to use intelligence to find out who the bad guys 
are.
    And, to go a little bit further, sir, I would say that this 
is a problem pushing resources to them right now, which is that 
they will use them in the wrong way. And we need to have a 
training program that goes along with any arming program.
    Mr. Connolly. Which we need to keep in mind given pending 
requests by Mr. Maliki on his visit.
    Mr. Byman. Yes, sir.
    Mr. Connolly. One final--I am probably going to get in only 
1 more final question. We were talking about Iran, but I think 
it is really important for an American audience not to conflate 
Iran with al-Qaeda.
    Iran has no love and the Iranian leadership has no love for 
al-Qaeda. As a matter of fact, they do view them as a terrorist 
threat. Do they not, Dr. Pollack?
    Mr. Pollack. Absolutely. The Iranians see al-Qaeda and 
other Salafist groups as very important adversaries. At times, 
they have made tacit arrangements with them. But, by and large, 
they fight them very hard all across the region. And I think 
that they are quite concerned about the rise of al-Qaeda in 
Iraq.
    But what has been interesting is that the Iranians have 
been among those who have been urging restraint on various 
Iraqi groups because they are afraid that this resurgence in 
violence will push Iraq into civil war, something that they 
don't want to see either. It is one of these strange areas 
where our interests and Iran's are at least in confluence.
    Mr. Connolly. If the chair would allow the rest of the 
panel just to comment on that, I would appreciate it.
    Mr. Poe. You may.
    Mr. Connolly. I thank the chair.
    Mr. Knights. I think there has been quite a lot of tactical 
cooperation between the Iranians over the years but ultimately 
agree with Dr. Pollack that they are not aligned strategically.
    Mr. Byman. Sir, there is a tremendous anger, both among 
Bohra Shia populations, Bohra Sunni populations, toward each 
other. And the sectarianism of the civil war, the horrific 
images that are circulated on social media have made it hard 
for open and closed cooperation and, in fact, have pushed both 
sides farther apart.
    We saw last month the bombing of the Iranian Embassy in 
Lebanon. And it is still a bit murky who was behind it, but the 
leading suspects seem to be Sunni jihadists of the sort linked 
to al-Qaeda. This is a very bad relationship, even though there 
is tactical cooperation.
    Mr. Poe. Ms. Lewis?
    Ms. Lewis. Congressman, I would just add that I do agree 
that al-Qaeda does represent a huge threat to Iran; in fact, a 
more direct and immediately proximate one than perhaps we may 
interpret, and that that should be an opportunity that we 
consider among our levers and relationships with all the 
countries in the region.
    Mr. Connolly. I thank the panel. And I thank you, Mr. 
Chairman.
    Mr. Poe. The question was asked earlier about assistance to 
Iraq. Staff has provided these figures for the panel and 
members: 2011, $1.2 billion; 2012, $300 million; 2013, $142 
million.
    The Chair recognizes Mr. Kinzinger from Illinois,----
    Mr. Kinzinger. Thank you, Mr.----
    Mr. Poe [continuing]. Iraqi veteran.
    Mr. Kinzinger. Yes. Thank you. Thank you, Mr. Chairman.
    And, again, to the panel, thank you for being here. This 
is--I forget who mentioned it earlier, but it is tragic in my 
mind that Iraq is not discussed more here. I am not going to 
blame anybody for that because I don't think it is anybody's 
fault. I think it is just a matter of--you know, it is not in 
people's consciousness. I think, frankly, Afghanistan is not 
discussed enough. I think there are too many people that think 
that we still have 100,000 troops in Afghanistan that are 
taking the fight to the Taliban and unaware of the fact that 
the Afghan Government has actually begun to really stand up.
    I want to say--I mentioned this in my opening statement how 
sad it is. I remember I was in Iraq in 2008, after the surge 
had begun. And, you know, you still saw. I flew ISR. So I still 
saw that people were stuck in their homes. They weren't out 
walking around.
    And then when I went in 2009, a striking thing happened. We 
saw kids out playing soccer. We saw people visiting stores. And 
there was really a feeling that we had turned the corner in 
Iraq. And it was a good feeling.
    And, again, my concern has been that we took that potential 
victory and we turned it into a complete failure because we 
decided that it wasn't worth the political points and the 
political cost. I believe a promise was made in an election to 
get out of Iraq. And that meant we are going to get out and not 
push hard for a status of forces agreement.
    I agree with the chairman in his concern about nation 
building. I do want to point out, however, though, thousands of 
Americans gave their lives on behalf of the Iraqi people. Lots 
of money was given on behalf of the Iraqi people. And at the 
end of the day, I would love to see a successful conclusion in 
Iraq so in 10 years, we can look back and say, ``Maybe we went 
through a difficult period here, but good things happened in 
the very end.''
    Ms. Lewis, you have produced some outstanding reports 
regarding this topic. You have been very helpful and insightful 
in regards to the current status of al-Qaeda in Iraq and how 
the violence has reached levels that we haven't seen since 
2008. In light of that fact that AQI has established and named 
specific campaigns, carried out a high amount of targeted VBIED 
attacks, do you believe that al-Qaeda, AQI, is more organized, 
better trained, and equipped than ever before?
    Ms. Lewis. Congressman, I think they are tremendously well-
organized, as we have mentioned, largely because of prison 
breaks that have been successful. There are al-Qaeda veterans 
in the field now. And I do think, particularly since September 
of last year, there is a tremendous amount of military 
wherewithal that is applied to their operations. I think they 
are leveraging old weapons systems that they used before and 
that they are maximizing the effects of these car bombs 
specifically and that if that capability were to go away, they 
would be overall much weaker.
    Mr. Kinzinger. Yes. And we don't have the threat of 
American troops. And so it gives them kind of a freedom to 
breathe and operate and plan and coordinate.
    Let me ask the panel. Then I will yield back when I am done 
asking the panel. We will start with you, Dr. Pollack. Can you 
explain to the American people, explain to us how the threat of 
al-Qaeda in Iraq actually is a threat to the American homeland?
    Mr. Pollack. Sure. I will start by saying that there is 
obviously a direct threat in that al-Qaeda has attacked the 
American homeland. It is one of the very few groups or nations 
that has been able to do so successfully. What we have learned 
from Afghanistan is that if we allow them to recruit and build 
up a base, they will bring the war to us if and where they can.
    Beyond that, though, we should also keep in mind another 
point that you were getting at, Congressman, which is they were 
trying very hard to create a civil war in Iraq. That is their 
goal. They want a civil war in Iraq. If they create a civil war 
in Iraq, it is likely to affect Iraq's oil exports. Iraq is now 
the second largest producer in OPEC. Much of the expectation of 
future production in the world is going to come from Iraq. That 
will hurt oil prices globally. And that will affect the 
American economy.
    Mr. Kinzinger. Thank you.
    I will just ask Dr. Knights and Dr. Byman if you don't mind 
answering that briefly: The threat to the homeland.
    Mr. Knights. So just a brief one. We saw with al-Qaeda in 
the Arabian Peninsula in Yemen that once an al-Qaeda franchise 
gets to a certain level of ambition and size, sometimes it 
turns toward homeland attacks against the U.S. There is a lot 
of rivalry between al-Qaeda and Iraq and rival groups in Syria 
like Jabhat al-Nusra. If you want to raise your profile and be 
the clear leader, one way to do that is to attack the U.S. 
homeland.
    Mr. Kinzinger. Dr. Byman?
    Mr. Byman. I would agree with that and simply add this is 
an organization that poses not only a threat to the homeland 
but to U.S. interests more broadly. And that includes interests 
in Iraq but includes interests in the region. A number of the 
states are close U.S. allies. And it is an enemy of all of 
them.
    Mr. Kinzinger. Thank you.
    And, just in my brief 10 seconds left, I just want to say 
to folks that are watching this hearing, that is the importance 
of what we are talking about. This isn't just about wanting to 
say we won in Iraq. This is about protecting the homeland, 
protecting America, and looking back in 10 or 20 years without 
regrets and not looking back and saying that we had an 
opportunity and we completely failed.
    So thank you for being here. Mr. Chairman, I will yield 
back.
    Mr. Poe. I thank the gentleman for his excellent questions. 
The Chair will recognize the gentleman, Mr. Schneider, from 
Illinois for 5 minutes.
    Mr. Schneider. Thank you, Mr. Chair. And, again, thank you 
to the witnesses for being here.
    Dr. Pollack, you talked about the goal of al-Qaeda in Iraq, 
AQI, being a civil war in Iraq. We have seen this great 
increase in the numbers of civilian deaths. And I have spoken 
with some of the representatives from Iraq. That has not yet 
turned to sectarian violence. With all of the attacks, you 
haven't seen neighbors attacking neighbors.
    What do you see--and I will open it to the whole panel. 
What do you see as the reasons why the sectarian violence this 
time around hasn't gone up commensurate with the terrorism? And 
what are the things we should be watching for to be prepared if 
it does start to turn?
    Mr. Pollack. Congressman, I think this is an absolutely 
critical question because you are right. These levels of 
violence could easily have pushed the country into civil war 
already.
    I would identify 3 critical forces of restraint in Iraq, 
all of which have been important but none of which may be 
permanent, the first of which I have already mentioned is the 
Iranians. For their own reasons, they don't want a civil war in 
Iraq. They have got a civil war in Syria that is consuming them 
enough. They don't want a second one, especially one closer to 
home.
    A second one is the Kurds. At different points in time, the 
Kurds have played a more constructive or less constructive 
role. For now and for the past year or so, what we have seen is 
a Kurdish decision that creating problems in Iraq is 
problematic for them. And they have actually taken a number of 
important steps to help mollify the violence and to reach out 
to the government, which has been very important.
    And then the last one is that both sides, Sunni and Shia, 
are concerned that if there is a future civil war, they may not 
win. And that is another calculation, I think a critical 
calculation, which is true at this moment, but it may not last. 
The Sunnis believe that they have the help from the wider Sunni 
world, but they don't know what that means.
    And for the Shia, they know they have got the numbers in 
Iraq, but the Iraqi security forces have performed fairly badly 
in recent months. I think there is great concern on the part of 
the government about what would happen and how well they would 
perform if there were a larger war.
    Mr. Poe. Ms. Lewis, do you want to?
    Ms. Lewis. Congressman, 2 things I would add quickly are 
that among the car bombs I tracked this past year, 19 of them 
targeted Shia mosques and that this can have a very incendiary 
effect.
    As well, the majority of those car bombs targeted Shia 
neighborhoods in Baghdad repeatedly and aggressively. And at 
some point, I am concerned that someone is going to step up to 
defend those neighborhoods. And this is the space that we are 
talking about that to me is actually very small between 
potential energy for sectarian violence and that possibly 
becoming virulent.
    Mr. Schneider. Dr. Knights?
    Mr. Knights. We do see the beginnings of sectarian 
retaliation at very low levels, corpses with letters attached 
to them explaining exactly why they were killed in retaliation, 
but we are still down around 1,400 incidents a month, instead 
of the 6,000 we saw during the height of the civil war. That is 
because most people have not got involved again back into the 
fighting.
    I put it down to 2 more local reasons: Conflict fatigue. 
People know what a civil war looks like, and they are not sure 
they would win it. Everyone knows they lose from it. And, 
secondly, the Shia now know that the Iraqi security forces 
retaliate on their behalf. So there is a large Shiite militia 
out there attacking Sunnis, and it is called the security 
forces.
    Mr. Byman. Sir, very briefly, I believe we are in a 
situation akin to Syria in early 2012, where we are seeing 
violence and we are seeing it growing and we are seeing a 
sectarian hue again. And my concern is that if you were to have 
hearings a year from now, a year and a half from now, we would 
be talking about the second sectarian civil war raging in the 
Middle East.
    I think all the trend lines are negative. And the points 
that my colleagues have raised about what is holding us in 
check I think are well-taken, but I am concerned that the 
direction is very much the wrong way.
    Mr. Schneider. The fact that this has been growing for so 
long and that it hasn't gone to sectarian violence, however, I 
think gives us some space to work in. Dr. Pollack, how do we 
use that space to work to make sure that it doesn't degrade 
into another conflict, like what we are seeing in Syria?
    Mr. Pollack. Yes. Another great question. And here I would 
focus, Congressman, on these impending elections, which are 
going to be very important for Iraq, which could either push 
Iraq conceivably into civil war or help pull it back. And there 
I think the U.S. has an important role. First, focus on the 
process. One of the great mistakes that we made in 2010 was 
that even though we were the guarantors and the builders of 
Iraqi democracy, we didn't enforce the rules of the road. And 
things came off the tracks. And Iraq went in a bad direction.
    A second one, conditionality, which we have been talking 
about, we need to make clear to our--to the Iraqis that our aid 
is ultimately predicated on their good behavior following the 
rules and then, finally, a willingness to name and shame. The 
United States carries a great weight in Iraq and in the region. 
And simply standing up and saying that so and so is behaving in 
a way that subverts Iraqi democracy is a very powerful tool.
    Mr. Schneider. Okay. And, with that, I am going to have to 
give you the last word as votes have been called and we have to 
go. Thank you. And I yield back.
    Mr. Poe. I thank the gentleman.
    As the gentleman mentioned, we are in the middle of some 
votes. That is one of the things that we are supposed to do as 
Members of Congress, to let our voice be known. And so we would 
be in recess until 2:45. I thank you, all 4 of you, for your 
patience. We will start back at 2:45.
    [Recess.]
    Mr. Poe. The committee will come back to order. There are 
some more members come their way. I am going to take the 
opportunity to ask some more questions. And I appreciate your 
diligence in being here and coming back.
    How many al Qaeda fighters are there in Iraq? Anybody that 
knows. Ms. Lewis?
    Ms. Lewis. Mr. Chairman, I don't from my own research. I 
have heard estimates of 3,000 to 4,000 fighters that I believe 
is oriented on Iraq that I don't have any reason to refute. The 
attacks that I have seen could be achieved by a force of that 
size.
    Mr. Poe. Anybody disagree with that? Dr. Knights?
    Mr. Knights. No disagreement, but membership of al Qaeda in 
Iraq is kind of like an onion, so many layers. Of that 3,000 to 
4,000, that probably includes everyone including the guys who 
steal the cars, the guys who weld them together, and all the 
rest of that. I think the core of card carriers could be 
substantially smaller than that. It could be in the high 
hundreds.
    Mr. Poe. Where do they get their money?
    Mr. Knights. Okay. So starting----
    Mr. Poe. Dr. Knights?
    Mr. Knights. A lot of it is organized crime. When we ripped 
this organization to pieces back in the 2005 to 2009 timeframe, 
it started the process of disintegrating into organized crime 
networks, and it became self-funding. As Iraq became a sordid 
place to have a jihad, not very inspiring.
    It ceased to get foreign funding, and they started to turn 
to their own means of raising money and that has allowed them 
to--and they have remained running those networks. We are 
talking about real estate, extorting mobile phone companies, 
running trucking companies, exporting oil.
    Mr. Poe. Ms. Lewis.
    Ms. Lewis. Mr. Chairman, I agree entirely. I would add that 
there are a few characteristics of their funding that describe 
this further, specifically that it is stable. They have a very 
stable supply chain. They are able to control the rate of their 
attacks. They aren't chasing money. They have a good system for 
this.
    What I would also add over in Syria is that it appears that 
they are fighting for control of the border checkpoints on 
Syria's northern border with Turkey, and I think they are also 
trying to seize opportunities for resources that are coming 
into the country.
    Mr. Poe. Dr. Byman.
    Mr. Byman. I think this is absolutely true. What I would 
add is I think their funding sources are changing. We are 
seeing hundreds of millions of dollars--or billions depending 
on your estimate--pouring into Syria, and they are able to 
extract a percentage of that because some of it goes through 
Iraq. And some of that is money, but a lot of it is weapons or 
in-kind transfers, and they are able to siphon that off.
    Mr. Poe. The bombings of mosques, for example, are they--do 
they discriminate against Shia and Sunni? And how does the--I 
think, Ms. Lewis, you may have mentioned this. How does the 
public view the security force's reaction to whether it is a 
Sunni or a Shia mosque, for example, that is bombed?
    Ms. Lewis. Mr. Chairman, they are primarily targeting Shia 
mosques. I think I have seen a couple of occasions where we had 
explosive attacks against joint Sunni/Shia prayer sessions in 
Diyala in order to deter that conciliatory behavior. They are 
specifically trying to make the Shia feel like they have to 
defend themselves and that the state is not succeeding in this.
    I would actually defer to the expertise that has already 
been had at the panel about the primary fact that that has not 
actually manifested as much as perhaps it might have in former 
years. But ultimately it does make the Iraqi security forces 
look like they can't do it.
    Mr. Poe. Dr. Pollack.
    Mr. Pollack. Mr. Chairman, I would simply add that in terms 
of public reaction, among the Shia, by and large, there is a 
great deal of pressure on Prime Minister Maliki to crack down 
even harder. And, you know, we have seen large-scale operations 
into Anbar, into Salahadin, into Diyala, to try to go after 
these guys. We look at them and see them as rather 
indiscriminate, but there are a lot of Shia Iraqis who would 
like to see an even greater use of force.
    Mr. Poe. Let us focus back on what we need to be doing. 
What is our position? What are we looking for in the future? 
Where do we need to push? Where does Congress need to push, the 
United States need to push? What is in our national security 
interest going forward?
    Now, we know the problem. We know it is increasing, al 
Qaeda is increasing in Iraq. How about some advice here? I want 
to go down the row. You are the experts, so we want to hear 
what you have to say. Dr. Pollack.
    Mr. Pollack. Mr. Chairman, certainly the United States has 
influenced, and part of what we need to do is actually employ 
that influence. We have been reticent to do so. The 
administration has not been as engaged either with Iraq or with 
the Middle East, as I would argue that they ought to be, as in 
the U.S. interest.
    But I will go beyond that and say something that is 
probably quite controversial in these halls, which is that the 
United States needs to manufacture more influence in Iraq, and 
that may actually require some commitment of additional 
resources. I would actually argue that we can do a lot more in 
terms of technical assistance, in terms of simply advising the 
Iraqis.
    I think that there is a certain amount that we can do that 
the Iraqis can pay for themselves. In fact, quite a bit that 
the Iraqis can pay for themselves. And I am reminded of the 
relationship that we had with the Saudis in the 1970s and '80s 
where together, using Saudi money and American expertise, we 
built the oil ports of Yanbu and Jubail. We built their 
telecommunications network. We built their road network.
    But at the moment, that is a little bit off into the 
future. And, again, I think even setting that up, using the 
strategic framework agreement between the United States and 
Iraq, to begin to set that up, would be very helpful, because 
Iraqis will know it is coming and they are looking for it.
    But right now they have got some needs. And as Dr. Knights 
was pointing out earlier, the Iraqis are mostly exhausting the 
resources that they have available very quickly. Obviously, if 
there is corruption in their system, you might be able to 
extract more.
    But this actually is a moment when some additional 
assistance from the United States, additional resources from 
the United States, I think could go a very long way in terms of 
saying to the Iraq people, ``We have not abandoned you. We are 
still interested in Iraq. We have our interests there. We are 
willing to commit resources, but they are going to be committed 
to what we need to see happen.''
    Mr. Poe. Ms. Lewis. We will go right down the row.
    Ms. Lewis. Mr. Chairman, I do think that resources are a 
valid expectation for what would need to be part of----
    Mr. Poe. Just get a little closer to the microphone, if you 
would.
    Ms. Lewis. Yes, of course, Mr. Chairman. The primary 
deficiency that I see is how they are applying the resources 
that they have. I do not see that their military campaign to 
counter al Qaeda is a very good one. I think one of our 
greatest potential levers is expertise in fighting al Qaeda, 
and I think that we should make this very much about what an 
effective campaign to counter al Qaeda in Iraq looks like, and 
fashion that into our options.
    Mr. Poe. Dr. Knights.
    Mr. Knights. That is absolutely right. No one is better at 
fighting al Qaeda in Iraq than the U.S. military. Even now the 
institutional memory is still there and it is still fresh. One 
of the dirty little secrets of operating in Iraq is that they 
are not very good at doing counterinsurgency in their own 
country.
    We always thought back in 2003 we made all of these 
mistakes because we are new to the country and that the Iraqis 
knew it much better. In fact, they are worse than we are and 
they have no excuse. And they are worse than we are willfully. 
They understand the country. They just don't want to do 
population-focused counterinsurgency.
    If they are willing to take our advice, we are able to 
bring a much more thoughtful approach to counterinsurgency/ 
counterterrorism in Iraq than they would. So I think all of the 
professional military education support we can provide to Iraq, 
IMET funding, OSCI, the security corporation command in Iraq, 
Section 1206 funding.
    Any of these things would be pretty well spent. They are 
quite small amounts of money often, and I think they can 
maintain a thoughtful--they can build a thoughtful approach in 
the Iraqi security forces toward counterinsurgency. They need 
to--we need to be back in there proffering our advice again.
    Mr. Poe. Dr. Byman.
    Mr. Byman. Mr. Chairman, rather than repeat what my 
colleagues have said, let me just add two points. My view is 
that part of Congress' role is to highlight these issues, to 
force the administration to engage at a higher level. I often 
agree with specific things the administration is doing, but it 
is being done at the ambassadorial level, it is being done at 
the deputy assistant level, it is being done by individuals who 
are very well meaning but in Iraqi terms don't have the clout 
of, say, the Secretary of State or the Secretary of Defense.
    And as a result, they believe I think correctly that they 
don't have to pay attention because the United States doesn't 
really care.
    And as my colleagues have said, a lot of the problem is not 
resources; it is how they use the resources. We have elections 
coming up, and there will be a question of, are these fair 
elections? There is a question of, are the security services 
defending Iraqis, or are they the arm of the Shia community? 
And the administration needs to push harder on all of these 
issues, and I think Congress' role is to highlight them so the 
administration really has to address them one way or another.
    Mr. Poe. And the last question has to do, once again, with 
Iran. I know you all are experts on al Qaeda. But should we be 
concerned of a situation in Iraq that is similar to the one in 
Syria, or you result in civil war, you have got two sides 
fighting each other, and you have the Sunnis and the Shias 
fighting, and then you have outside countries coming in and 
taking sides, and we know Syria is--it is bad on the citizens. 
They are the ones who lose, the people who live there.
    Is that a scenario that could play out, or is that not? 
Just kind of looking into the future if civil war erupts 
because of al Qaeda's presence and the things that you all have 
talked about. Dr. Pollack. We will go down the row, and it will 
be the last question.
    Mr. Pollack. Mr. Chairman, I think that is a very important 
concern. It is one of the great issues of civil wars. Dr. Byman 
and I did a study of civil wars back in 2006 when we were 
looking at Iraq and civil war, and that was one of the great 
conclusions of our work was that this was a very real risk, 
that an all-out civil war would almost certainly suck in all of 
the neighbors into the fighting itself.
    Iran, because of its position, was relatively able to 
dominate over much of Iraq. And if Iraq falls back into civil 
war, which is a very real possibility at this point in time, 
looking at some point into the future, I think that that 
scenario is one that we absolutely have to be concerned about.
    I will simply add, Mr. Chairman, that we have to be equally 
concerned about our allies getting sucked into an Iraqi civil 
war. Saudi Arabia, Kuwait, Jordan, even Turkey--these are not 
countries whose economies and militaries are ready to withstand 
the stresses of a civil war. These are not countries whose 
political systems can withstand that either.
    Mr. Poe. Thank you. Ms. Lewis.
    Ms. Lewis. Mr. Chairman, I agree. I think the primary thing 
I would highlight is that that is exactly what al Qaeda is 
trying to do and why they are stoking sectarian violence--that 
would set them most up for success in trying to establish an 
Islamic Emirate and that they will try to precipitate that end 
by every way that they can think of.
    Mr. Poe. Dr. Knights.
    Mr. Knights. Back in 2006/2007 when we had civil war-like 
conditions in Iraq, I would argue that--and actually they did 
not really suck in the neighbors. But this time, if we went 
back into civil war in Iraq, it would because things have 
changed since then. The regional context is different. We have 
the Sunni/Shia conflict, much more heightened now. We have a 
number of Sunni states, like the Saudis, the Emiratis, the 
Qataris, who have been actively involving themselves in 
regional conflicts--Libya, Syria, Yemen, et cetera--and the 
U.S. is out. So this time it has got much more potential to 
drag in third parties than it did back in '06/'07.
    Mr. Poe. Last word, Dr. Byman.
    Mr. Byman. I am not sure I am worthy of that, Mr. Chairman. 
But all I would say is that Iran feels that it has lost ground 
because of the Syria conflict, that it had a very strong stable 
ally in Syria, and now the situation is fraught and its ally 
might fall.
    From Iran's point of view, losing Iraq as well would be a 
disaster, and I think they are prepared to go very hard and 
very strong, should the situation become quite negative in Iraq 
itself.
    Mr. Poe. Well, I want to thank all 4 of you. The testimony 
has been excellent, including your prepared statements.
    And so the subcommittee is adjourned, and thank you once 
again for your help.
    [Whereupon, at 3:05 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
